WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-8128

Teddy Ogle | IMike Partis, Warden
(Petitioner) Vv. (Respondent)

1DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:

© I am filing this waiver on behalf of all respondents.

 

oO I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

© I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: | Baz - - _

Date: | C/2Y/ 222| |

(Type or print) Name Richard Davison Douglas |

© wr. O Ms. O mrs. O Miss

Firm (Office of the Tennessee Attorney General and Reporter

Address P.O. Box 20207 /
|

City & State Nashville, Tennessee | tip [7202

Phone (615) 741-4125 Email Kdavey.douglas@ag.n.gov |

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

eddy Ogle
308445
P.O. Box 2000
fartburg, TN 37887
